No: 20-671
IN THE)
SUPREME COURT OF THE UNITED STATES

Atul C. Shah
Petitioner
-vMotors Liquidation Company GUC Trust
And
Modern Educational System
Respondents
REQUEST FOR A REAHERING IN GOOD FAITH
Petition for an Extraordinary Writ
Petition for a Writ of Mandamus
Atul C. Shah
2884 Manorwood Drive
Troy, Michigan, 48085-1145
Home Tel: (248) 879-0795
atul99krishna@vahoo.com

Petition for a Rehearing in Good Faith
Table of Contents;
1. Introduction

2

2. Purpose of Rehearing in Good Faith

2

3. Modern Educational System

3

4. Description of the Cause and Effect

4

5. Primary Ten US Constitutional Amendments

5

6. If you are a Black, you are a slave

5

7. The Founding Fathers were Owners of Slaves

6

8. Late Dr. Nathan Davis and Apology by AMA

6

9. If you are a Hindu, you are a Bigot

7

10. Breach of the Public Trust by IT Companies

8

11. Justice is a Justice and Justice is not the Just-ice

9

12. No Harm to be a Respondent by Scotus

10

13. Real Freedom, Liberty and Independence

10

14. Comparative Study of the Constitutions

10

15. Absolute Compliance and Amicable Resolution
16. Conclusion

12
14

1

1. Introduction:
This is a Petition for Rehearing in Good Faith for my
Petition for an Extraordinary Writ with the Petition
for a Writ of Mandamus civil case number 20-671
that was docketed on November 16, 2020.1 sincerely
and humbly thank Nine Supreme Court Justices and
their staffs for reviewing my case. I sincerely thank
Case Analysts and Clerks Michael Duggan, Jeffrey
Atkins and Scott Harris for the technical guidance.

It will be a great honor to be present during or after
the upcoming Conference for a Rehearing in Good
Faith per the discretion of the Supreme Court.
2. Purpose of a Rehearing in Good Faith:
Herewith, comes Atul C. Shah, an attorney and
Petitioner, presenting the Petition for a Rehearing in
Good Faith per the Supreme Court Rule 44. This is
the corrected 14-page petition supported with the
2

substantial grounds and the controlling effects that
were not previously presented in the explicit manner
prior to the deadline of March 5, 2021.1 am
submitting three hard copies on 8

11” paper as

recommended by the clerk Jeffrey Atkins.
3. Modern Educational System is the Dictatorial
and Autocratic in Nature:
As described in my Petition for an Extraordinary
Writ case number 20-671,1 believe that the Modern
Educational System that includes the Modern Law
System, Modern Science & Medical Science and the
Modern Internet Technology is Dictatorial and
Autocratic in nature as described repetitively in my
10 plus legal briefs and articles per my humble
opinion and observation.
Modern Educational System is in dire need of the
Higher Dimensions and Transformation.

3

I. Higher Dimensions with the Modern Law System
II. Higher Dimensions with the Modern Science
III. Higher Dimensions with the Modern Internet
Technology
Modern Educational System needs transformation
and Higher Dimensions to be the democratic, people
friendly and the compassionate system for all.
4. Description of the Cause and Effect:
The Cause is always present in the Effect whether
Good or Bad, Substantial or Insignificant, with
Ground or Groundless. For an example: the
defective, cruel and exclusivist doctrines of the
Primary Ten Man-made US Constitutional
Amendments is the Primary CAUSE of the Racial
Discrimination against entire Black Race and Sexist
Discrimination against White and Asian Women for
centuries. The CAUSE is always present in the

4

EFFECT as described in my petition 20-671 on page
numbers App 469 to App 476 in the Appendix O.
5. Primary Ten US Constitutional Amendments
are defective, cruel and exclusivists in nature:
Primary Ten US Constitutional Amendments are
defective, cruel and exclusivists in nature requiring
additional 17 Amendments totaling 27 US
Constitutional Amendments. There is a dire need of
the Final and 28th US Constitutional Amendments
per the Vedic Wisdom as described in my Petition
Case number 20-671 on Page 74 to 76 for the detail.
6. If you are a Black, you are a Slave:
This is the famous and unfortunate mandate that
has been engravened within the Primary Ten Man­
made US Constitutional Amendments compiled by
the Founding Fathers of the Declaration of
Independence on July 4, 1776. This historic fact is
well known to every Modern law Practitioner of this
5

small globe. This is the defective, cruel and
exclusivist amendments requiring additional 13, 15
and 19 Amendments for a fair justice for the entire
Black Race, White and Asian females.
7. Founding Fathers were owners of the Slaves:
We all know well that half a dozen of the Founding
Fathers including the first US President George
Washington were owners of dozens of slaves from the
Black Race that is known to everyone.
8. Dr. Nathan Davis. MD is Father of AMA and
Apology by AMA;
This is the best example of the CAUSE that is
always present in the EFFECT whether Good or
Bad, Substantial or Insignificant and with Ground or
Groundless. It is a fact that late Dr. Nathan Davis,
MD practiced heavy-handedly the Racial
Discrimination and Sexist Discrimination as the
AMA President until the Civil Right Act of 1964.
6

Apology by the American Medical Association was a
welcome and compassionate gesture by the AMA.
The Civil Right Act of 1964 was put into the motion
for dismantling the Racial and Sexist discrimination
against the Black Physicians and the White and
Asian female physicians for a century.
9. “If You are a Hindu, you are a Bigot” California Vs Cisco System Case:
This is another and recent example of the defective,
cruel and exclusivist nature of the Modern Law
System practiced in the USA. The Cause and Effect
are eternal and never be extinguished by anyone.
However, the CAUSE & EFFECT can be
transformed into a comnassionate and friendly
category as described in Description of Science of
Relationships in the page number App 644 in my
petition 20-671. In other, word, the defective, cruel
and exclusivist primary Ten US Constitutional
7

Amendments can be TRANSFORMED into a friendly
and compassionate amendments.
10. Breach of the Public Trust by Chairmen and
CEOs of the Modern IT Companies:
The marvelous Internet and Computer Technology
was created in the USA a century ago by the will of
the Supreme Personality of Godhead for a specific
purpose of the Global Prosperity, Global Peace and
Global Enlightenments with End of the Atheism,
Immorality and Terrorism. However, the lucky
Chairmen and CEOs of the wealthy IT companies
such as Microsoft, Google, Amazon, Facebook, Yahoo
and Dell etc. became fabulously “Rich and Famous”
with help from the Modern Law System and Patent
System of the USA, India and other countries.
Chairmen and CEOs of IT companies are unable to
described scientifically the “Fundamental Principles
of the Internet and Computer Science” for a century.
8

This is the best example of the BREACH of the
PUBLIC TRUST that has been superbly Concealed
by the Chairmen and CEOs. Only the Vedic Wisdom
of the Vedic Literature: the Supreme Science of India
can unravel the Fundamental Principles and the
Final Puzzle of the Modern Internet and Computer
Science mysteries as mentioned in the Appendix R.
11. Justice is Justice and not the Just-ice:
We know that the favorable justice bestows Fame
and Wealth and the unfavorable justice brings the
disappointment and infamy for the defendants in
civil or criminal cases. In the criminal cases, the
favorable justice brings the acquittal and
unfavorable justice brings the imprisonment.
However, the justice may be COLD, CALLOUS and
SHIVERING just like the ice for many defendants. I
have great experiences of multiple JUSTICE or
JUST-ICE verdicts from 2008 to present.
9

12.

No harm to be a Respondent bv the Scotus:
In this historic and unprecedented civil case number
20-671, the honorable Supreme Court is designated
as one of the RESPONDENTS per the Supreme
Court Rule 20.2. I sincerely believe that the
honorable Supreme Court should not be hesitant to
play a role of the Respondent in this case. However,
the Supreme Court is the Supreme Court all time.

13. Real Freedom. Liberty and Independence:
This great point has been described in my legal brief
Petition for an Extraordinary Writ with Petition Case
number 20-671 on page App 651-652.
14. Comparative Study of the Constitutions:
There are prominent Modern Constitutions compiled by
the Modern Law Practitioners in India, USA, United
Kingdom and other countries within last five plus
centuries during our modern time.

10

I. The Constitution of India is the GOLD MEDAL
WINNER Constitution. The Constitution of India is
the oldest and perfect Constitution about FIVE
THOUSAND PLUS YEARS old based upon the
eternal Vedic Wisdom of Sanatana Dharma.
II. The Constitution of USA is the SILVER MEDAL
WINNER Constitution for last 250 plus years for the
citizens of the USA.
III. The Constitution of United Kingdom is the BRONZE
MEDAL WINNER constitution for last less than 500
hundred years for the citizens of the UK.
IV. Mother Earth or Bhumi-devi is divided artificially
into 195 countries. Also, every country whether
Democratic. Communist. Autocratic. Dictatorial or
Atheistic country has a Good or Bad Constitution.
The constitution of the Red Indian Tribes of the
American Continent is primitive and disorganized

11

in nature. The constitutions of the Middle-eastern
countries are full of the Terrorism and Brutality.
15.

Absolute Compliance and Amicable Resolution:
Herewith, I am expressing my sincere desire to
accept and abide by the multiple verdicts rendered
by the Nine Honorable Supreme Court Justices
during the Conferences of 2015 and of 2021.

I am humbly and respectfully praying to the
honorable Supreme Court of the United States for
rendering the following ORDERS for a fair justice.
A. ORDER that the Motors Liquidation Company
GUC Trust pay ONE DOLLAR compensation for
the discrimination based upon the Religion,
Nationality, Color and Age.
R ORDER that the wealthy IT companies
Microsoft, Google, Apple, Yahoo and Dell etc. to
pay 10 plus million dollars for the Breach of
12

Public Trust. Dr. Atul C. Shah, MD will be
providing the Higher Dimensions in “Description
of the Fundamental Principles of Internet and
Computer Science Mvsterv” per the Vedic
Wisdom as the Research Director in MetroDetroit area.
C. I have sincere desire and have the excellent
physical, mental and spiritual capability working
for five plus years as the Research Director at
the research facility located in the Metro-Detroit
area per my preference and wish.
D. I would like to assure that there is not a
slightest intention of blasphemy, defamation or
the contempt of the court by this humble-self
Atul C. Shah, MD at present, in past or in the
future.
E. I greatly admire the American Spirit —
relentless pursuit to realize the Absolute Truth.
13

Conclusion
I am praying and requesting again to the honorable
Supreme Court of the United States for kindly granting the
Petition for an Extraordinary Writ with the Petition for a
Writ of Mandamus with a Rehearing in Good Faith for this
historic and unprecedented civil case.

Respectfully submitted,

Atul C. Shah, MD
Attorney and Petitioner
2884 Manorwood Drive
Troy, Michigan

February 28, 2021
14

Certificate of Good Faith
I, Atul C. Shah, certify that this request is being
submitted in a Good Faith and there is no under delay of
any kind.

Respectfully submitted,

Atul C. Shah, MD
Attorney and Petitioner
2884 Manorwood Drive
Troy, Michigan
Tel: 248-879-0795

February 28, 2021

Certificate of the Substantial Grounds
I, Atul C. Shah, certify that this request is being
submitted with the substantial grounds and controlling
effects that were not previously presented as well as in the
Good Faith.

Respectfully submitted,

Atul C. Shah, MD
Attorney and Petitioner
2884 Manorwood Drive
Troy, Michigan
Tel: 248-879-0795

February 28, 2021

